    (




         TITLE: Fraud

         CASE NUMBeR: oa,,039

         DATE OF RePORT: July 22, 2008

         REPORT PREPAReD BY:
                                                                                                "
        Report of Interview: _ __
        Report of Documents:
        Other Activity (Describ-:a)-:-C-;:',~:-os~ln-g"':R~e~p-or1-;-

         BACKGRQUND\

        The Office of Inspeotor General (OIG), Office of Investigations (01), conducted an
(       Investigation concerning iii prohibited P·Card use for a WlO night hotel stay at the
        Omni Berkshire Place Hotel In New           I New Yorl<, The hotel stay was on Apr"

                                                      IIIIP.-card        request was made
                                                  •                          I according to a




        FINDING OF FACTS:
        010 conduoted an Investigation which determined that the allegation Was
        SUbstantiated, The P-Card use was outside of                policy guidelines, This
        matter was referred to Vice President                         has requested that all
        General Superintendents ensure that                      are familiar with Amtrak's
        Proourement Card Policy. In addition. the Transportation Department will
        monitor the use of P-Carcts on a random basis to ensure compliance with eXisting
        policy. Please see a copy of the a!1aotied referral and response.

        CONCLUSIONS:

        .Based on the above Information and action tal<en above, it is recommended that
         this case be closed.

        Supervisory Special Agent...        '~ ~                        At,
        Deputy Inspector Generall Counsel_,_   ~Jv/X7fl
